Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Technology Grant Administered by the Concurrent Technologies CorporationJohnstown, Pennsylvania

Report No. GR-70-04-007


June 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the technology grant awarded by the Office of Community Oriented Policing Services (COPS) to the Concurrent Technologies Corporation (CTC) and the Pennsylvania Department of Corrections (PADOC)1.  The purpose of the Law Enforcement Technology Program is to continue development of technologies and automated systems to assist state and local law enforcement agencies in investigating, responding to and preventing crime.  Between October 2001 and September 2003 the CTC was awarded a total of $3,815,000 to design, develop, and deliver the Simulated Prison Environment Crisis Aversion Tools (SPECAT). The goal of the SPECAT is to provide the PADOC with an interactive training tool kit based on enhanced computer based training and 3-dimensional (3-D) familiarization capabilities.
We found CTC to be in material non-compliance with COPS's technology grant requirements.  We reviewed CTC's compliance with six essential grant conditions and we found weaknesses in three of the six areas we tested:  budget management and control, grant drawdowns, and grant expenditures.  As a result of the deficiencies identified below, we question $1,134,841 of grant funds received and recommend an additional  $468,498 be put to better use.2

Concurrent Technologies Corporation transferred funds between direct cost categories in excess of ten percent of its total budget without COPS approval.


Concurrent Technologies Corporation did not expend all grant funds prior to the end date of the technology grant.


Concurrent Technologies Corporation charged $647,144 in indirect costs to the grant that were not approved in its grant budget.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.
We discussed the results of our audit with CTC officials and have included their comments in the report as applicable.  In addition we requested a response to our draft audit report from the CTC.


Footnotes

Both the CTC and the PADOC signed the grant award documentation.  However, since the grant funds were electronically deposited into the CTC account and the CTC administered the grant, for the purposes of our report we considered the CTC to be the grantee.  We plan to separately address to COPS our concerns regarding the award of the grant to both the CTC and the PADOC.
The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for a definition of questioned costs.